July 31, 2008

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

ALL AREA VICE PRESIDENTS

SUBJECT: Audit Report – Business Mail Entry Unit Sampling and Verification
         Procedures (Report Number MS-AR-08-005)

This report presents the results of our self-initiated audit of the Business Mail Entry Unit
(BMEU) sampling and verification procedures (Project Number 08RG002MS000). Our
objective was to determine whether mail sampling and verification policies and
procedures were followed to ensure that applicable postage was collected at BMEUs
and associated Detached Mail Units (DMUs). This audit addresses BMEU operational
risk. Click here to go to Appendix A for additional information about this audit.

Conclusion

Although Postal Service employees at BMEUs and associated DMUs followed mail
sampling procedures, they did not always follow mail verification policies and
procedures. Specifically, BMEU personnel did not always perform required verifications
for large mailings or ensure adequate backup verification coverage.1 As a result, they
may not have collected all applicable postage.

In-Depth Verifications for Large Mailings Were Not Always Performed

At the six BMEUs and associated DMUs we reviewed, in-depth verifications were not
always performed for mailings of 10,000 or more pieces. Specifically:

•     At locations with a Mailing Evaluation Readability and Lookup INstrument (MERLIN)
      machine, manual verifications were not performed as required when mailings were
      not MERLIN compatible or the MERLIN was not available for use.

•     Conflicting priorities did not allow personnel to both perform required verifications
      and staff the acceptance counter.

•     Clerks did not always annotate whether verifications were required.


1
    All acceptance and verification at both BMEUs and DMUs are performed by BMEU personnel.
Business Mail Entry Unit Sampling                                                                       MS-AR-08-005
 and Verification Procedures


Because verifications were not always performed, the Postal Service was at risk of not
collecting all applicable postage. Click here to go to Appendix B for our detailed
analysis of this topic.

For the 360 postage statements and mailings reviewed,2 the difference between the full
rate if no discounts were applied and the rate at which the mail was entered totaled
$1,904,983. We will report this non-monetary impact as revenue at risk3 in our
Semiannual Report to Congress.

We recommend the Vice President, Business Mail Entry and Payment Technologies:

1. Assess the placement and usage of Mailing Evaluation Readability and Lookup
   INstrument machines at all Business Mail Entry Units to determine efficiency and
   relocate the machines as needed to maximize usage.

2. Request PostalOne! software modifications to:

    a) Create a field requiring Business Mail Entry Unit clerks to input verification
       results.

    b) Generate a report to list mailings of more than 10,000 pieces that did not receive
       a required verification.

    c) Create a field in the system annotating whether the mailing is due to receive a
       verification under a skip interval and allow the data to be permanently attached to
       the mailing information.

    d) Create a field to direct clerks to annotate why required verifications were not
       performed, either manually or using the Mailing Evaluation Readability and
       Lookup INstrument.

We recommend the Vice President, Business Mail Entry and Payment Technologies, in
coordination with the Area Vice Presidents:

3. Direct District Managers to review PostalOne! reports to determine the validity of
   reasons for any mailing of more than 10,000 pieces not receiving a required
   verification.




2
  The six locations we visited processed 28,630 mailings in December 2007.
3
  Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
the Postal Service currently provides).




                                                           2
Business Mail Entry Unit Sampling                                                              MS-AR-08-005
 and Verification Procedures


Backup Verification Coverage Was Not Established at One Detached Mail Unit

xxxxxx BMEU management did not provide adequate staffing coverage at a DMU to
conduct verifications on 15 nonconsecutive days (for example, Sundays and holidays)
during December 2007. 4 This occurred because the BMEU clerk assigned to the DMU
was on leave or was not scheduled to work. Further, BMEU management had no
established procedure for assigning backup personnel at the DMU. Click here to go to
Appendix B for our detailed analysis of this topic.

As a result, the Postal Service was at risk of not collecting all applicable postage. For
the postage statements and mailings we reviewed, the revenue at risk is $613,025. We
will report this non-monetary impact as revenue at risk in our Semiannual Report to
Congress.

We recommend the Vice President, Business Mail Entry and Payment Technologies, in
conjunction with the Area Vice Presidents:

4. Direct Business Mail Entry Unit managers to analyze staffing and efficiency to
   determine staffing requirements at direct mail units and develop a procedure for
   assigning backup personnel as needed to perform the required verifications.

Management Actions

The Postal Service is implementing a Performance Based Verification (PBV) initiative.
(See Appendix A.) While PBV may address some of the issues we identified, the
program was in the testing phase during our audit. Consequently, we have not
evaluated the effectiveness of this initiative. In addition, Postal Service management is
taking actions to ensure that personnel receive the required training5 and to begin
rotating staff between the xxxxxx BMEU and DMU.

Management’s Comments

Management agreed with our recommendations and non-monetary impact.
Management will reallocate MERLINs after PBV features of the PostalOne! system are
deployed. They will request PostalOne! software modifications as recommended, and
will require district managers to determine why mailings over 10,000 pieces did not
receive required verifications. Finally, management will require BMEU managers to
develop procedures to assign backup staff as needed to perform required verifications.
Management’s comments, in their entirety, are included in Appendix C.




4
  We included calendar year (CY) 2007 revenue for the DMU in the xxxxxx BMEU data in Appendix A. Separate
revenue data for the DMU was not available.
5
  At the sites we visited, records indicated that management provided the required training.




                                                      3
Business Mail Entry Unit Sampling                                            MS-AR-08-005
 and Verification Procedures


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We will report $2,518,008 in revenue at risk in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Patrick R. Donahoe
    Thomas G. Day
    Robert I. Galaher
    Katherine S. Banks




                                            4
Business Mail Entry Unit Sampling                                                                MS-AR-08-005
 and Verification Procedures


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Business Mail Entry (BME) channel is the largest means of mail entry into the
Postal Service. The BME channel covers about 55 percent of the revenue and over
73 percent of postal mailpiece volume. The Postal Service receives all permit mailings
through this channel, as well as $3 billion in meter revenue and a small amount of
stamp revenue. Concerns about revenue protection have increased with the advent
and growth of worksharing, which gives customers discounts for preparing and
transporting their own mail.6

The BME channel consists of BMEUs and DMUs. A BMEU is the area of a postal plant
where mailers present bulk, presorted, and permit mail for acceptance. The BMEU
includes dedicated platform space, office space, and a staging area on the workroom
floor. Mail is accepted at 3,748 BMEUs in Postal Service facilities, and at approximately
595 DMUs that are located in mailer or intermediary facilities but report volume and
revenue through their associated BMEUs.

The total revenue and number of mailings at the sites we visited were:

         Table 1: Calendar Year 2007 Revenue (in $000s) and Mailings by Location
                 xxxxxxx    xxxxxx     xxxxxxx     xxxxxxxxx   xxxxxxxx      xxxxx

    Revenue        $663,674      $444,334        $775,691        $488,703         $691,929         $954,938


    Mailings       130,826         8,526          22,423           62,880           78,732          53,435


Source: Web-Enabled Enterprise Information System (WebEIS)

The Postal Service provides worksharing discounts to mailers who prepare their
business mail according to specific standards before they bring the mail to a BMEU for
acceptance. Mailers receive worksharing discounts for barcoding, presorting, and drop-
shipping (transporting the mail closer to its destination). The lower rates compensate
customers for work that would otherwise be performed by the Postal Service.
Worksharing has grown to include 80.6 percent of all mail volume.7 Discount mailings
(such as Standard Mail and bulk parcels) can enter the bulk mail network by being
weighed and paid for at the mailer’s plant through a DMU or at a postal plant through a
BMEU.



6
    These figures represent 2006 data.
7
    Bound Printed Matter Workshare Discounts (Report Number CRR-AR-08-005, dated May 9, 2008).




                                                       5
Business Mail Entry Unit Sampling                                                         MS-AR-08-005
 and Verification Procedures


The verification process was established to ensure that the mailer prepares the mailing
in accordance with standards for the rate at which the mailing is presented.8 Required
presort verifications are summarized as follows.

•   Initial Verification – All mailings, whether accepted at a non-MERLIN or MERLIN
    site, receive an initial verification, which includes review of postage statements, fund
    verification, mailpiece examination, and document review. When mailings do not
    pass the initial review, the customers are contacted and advised of errors and
    options for correcting the mailing. Mailings that pass are cleared for processing.

•   In-Depth Verification – For non-MERLIN sites, in-depth verifications are required
    for mailings of 10,000 pieces or more; mailings that previously failed an in-depth
    verification; and mailings identified with presort errors during the initial verification
    process. The in-depth verification provides a graduated verification schedule for
    mailers who consistently provide well-prepared mailings. These mailers will be
    moved to a less frequent in-depth verification cycle. Samples are taken using a
    random generator list, and mailpieces are examined for proper sortation, labeling,
    quantity, mailpiece automation compliance, and barcode quality.

    For MERLIN sites, in-depth verifications are required for all mailings of 10,000
    pieces or more. If the sample does not pass verification, the mail is held and the
    customer is notified of his options to pay additional postage, appeal the decision and
    pay the additional postage, or rework the mailing. Trays and sacks are selected for
    sampling from a random generator list produced during each tour. The
    computerized list changes each time it is produced. The time and date must be
    printed on all copies produced to ensure that the most current list is being used.

Despite the addition of automated verification through MERLIN and other improvements
to acceptance controls, according to the Government Accountability Office (GAO) risks
of revenue leakage arise from:9

•   Verifications not properly performed.

•   Verifications not performed at the proper frequencies.

•   Cost avoidance and additional postage not entered into PostalOne!

•   Staffing – no qualified BMEU clerks available.

•   Time constraints.

•   BMEU clerks not receiving proper training.


8
 Handbook DM-109, Business Mail Acceptance, Section 31, page 93, September 2006.
9
 Changes Made to Improve Acceptance Controls for Business Mail (Report Number GAO/GGD-00-31, November
1999).




                                                   6
Business Mail Entry Unit Sampling                                           MS-AR-08-005
 and Verification Procedures


•   Management oversight – management not ensuring that employees follow policies
    and procedures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether mail sampling and verification policies and
procedures are followed to ensure applicable postage is collected at BMEUs and
associated DMUs.

To accomplish our objective, we judgmentally selected six BMEUs xxxxx xx xxx xxxxxxx
xxxxxx xxxx xxxx xxxx xxxxx xxxxxxxxxx xxxxxxx xxx xxxxxxxx. We reviewed guidance
for business mail acceptance and verification procedures and interviewed key personnel
at the selected BMEUs and DMUs to gain an understanding of existing processes and
management controls. We reviewed and analyzed December 2007 business mail
acceptance data and reports from the Accounting Data Mart (ADM), MERLIN
Maintenance and Operations Database (MMOD), PostalOne!, and WebEIS. In addition,
we judgmentally selected and reviewed a sample of large mailings (10,000 pieces or
more) at each selected location. Finally, we observed mail acceptance, verification, and
clearance processes and reviewed postage statements and other supporting
documentation.

We conducted this performance audit from October 2007 through July 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions.

We assessed the reliability of computer-generated data by verifying computer records to
source documents. We discussed our observations and conclusions with management
officials on May 7, 2008, and included their comments where appropriate.




                                           7
Business Mail Entry Unit Sampling                                               MS-AR-08-005
 and Verification Procedures


PRIOR AUDIT COVERAGE

     Report Title            Report     Final Report Date   Monetary          Report Results
                            Number                           Impact
Mail Evaluation,         NO-AR-05-       March 29, 2005       None     Although MERLIN utilization
Readability and          008                                           had increased at the
Lookup INstrument                                                      Sacramento BMEU, it did not
Utilization at the                                                     meet the Postal Service’s
Business Mail Entry                                                    target of 100 percent
Unit in Sacramento,                                                    verification for large mailings.
California                                                             Since October 2003, the
                                                                       Sacramento BMEU had
                                                                       verified, on average,
                                                                       27 percent of its large
                                                                       MERLIN-compatible mailings.
                                                                       Average utilization rates at
                                                                       DMUs ranged from 7 percent
                                                                       to 88 percent. As a result, the
                                                                       Postal Service may not have
                                                                       identified and collected
                                                                       appropriate postage due from
                                                                       business mailers.
Fiscal Year 2007         FF-AR-08-131    March 19, 2008       None     Although internal controls
Financial Installation                                                 were generally in place and
Audits – Business Mail                                                 effective, a significant
Entry Units                                                            deficiency existed with the
                                                                       acceptance of mail at BMEUs.
                                                                       We reported similar mail
                                                                       acceptance and other
                                                                       compliance issues in several
                                                                       consecutive prior fiscal year
                                                                       reports, and management
                                                                       concurred and agreed to
                                                                       reemphasize policy. However,
                                                                       these conditions had not
                                                                       improved and, in many
                                                                       instances, had worsened.


MANAGEMENT ACTIONS

At the time of our review, the Postal Service was testing PBV. In PBV, mailers’
verification profiles are based on their performance at a specific site. PBV will replace
the existing one pass/two pass (manual) and MERLIN verification selection process in
PostalOne!. PBV uses elements such as the mailer’s verification history, mailing size,
cost of verification, and cost of errors to determine the verifications that should be
performed for a mailing. In addition, management is taking action to ensure that
personnel receive the required training and to begin rotating staff between the xxxxxx
BMEU and DMU.




                                             8
Business Mail Entry Unit Sampling                                                                MS-AR-08-005
 and Verification Procedures



                              APPENDIX B: DETAILED ANALYSIS

In-Depth Verifications for Large Mailings Were Not Always Performed

In December 2007,10 in-depth verifications were not performed for all mailings of 10,000
or more pieces11 at the six BMEUs and associated DMUs we reviewed. (See Table 2.)
Specifically, 199 of the 360 mailings received an initial verification, but did not receive a
MERLIN or manual in-depth verification as required.

                    Table 2: Mailings with No In-Depth Verifications
                                    Mailings with No      Representing
                                         In-Depth            Revenue
                BMEU Location         Verifications           Totaling
                    xxxxxxx               32 of 60             $ 249,995
                                                 12
                     xxxxxx             60 of 60                 7,735,841
                    xxxxxxx               20 of 60                 249,551
                  xxxxxxxxx               28 of 60                 399,184
                   xxxxxxxx               25 of 60                 696,240
                      xxxxx               34 of 60                 420,528
                     Totals             199 of 360             $ 9,751,340

Handbook DM-109 states that staffing must be sufficient to ensure continued online
entries in PostalOne! even during daily peak acceptance times. Also, BME managers
are responsible for annually ensuring the adequacy of BMEU staffing and scheduling.
Further, all mailings of 10,000 pieces or more at a MERLIN location must receive a
MERLIN (in-depth) verification. At non-MERLIN locations, all presorted mailings of
10,000 pieces or more are placed on a graduated verification cycle, known as a skip
interval, to ensure compliance with mail preparation standards. If a mailing is not
MERLIN-compatible, or if the MERLIN machine is not operational, a manual verification
should be performed. Mailings of less than 10,000 pieces will not be scheduled for an
in-depth verification unless problems are identified during the initial verification process.




10
   December was not unusually busy at the BMEUs we visited. Ranked by CY 2007 revenue, December was the 7th
busiest month in xxxxxxx; 9th at xxxxxx, 6th at xxxxxxx and xxxxx; 5th at xxxxxxxxx; and 3rd at xxxxxxxx.
11
   Handbook DM-109 requires an in-depth verification for large mailings (more than 10,000 pieces) and mailings
identified with presort errors during the initial verification process.
12
   To review the mailings of 10,000 or more pieces, we used BMEU and DMU records held at the xxxxxx BMEU; we
did not use DMU records stored at the xx xxxxxx xxxxx Post Office.




                                                       9
Business Mail Entry Unit Sampling                                                                        MS-AR-08-005
 and Verification Procedures


In-depth verifications were not always performed for several reasons.

•    At one BMEU, the clerk did not adhere to the guidance because he felt he was not
     adequately trained to perform in-depth verifications. However, we verified that he
     had received the required training.

•    At locations with a MERLIN, manual verifications were not performed as required
     when mailings were not MERLIN-compatible or the MERLIN was not available for
     use.

•    Conflicting priorities at the BMEU did not allow personnel to perform manual or
     MERLIN verifications as well as staff the acceptance counter during high-volume
     mailing periods. The same personnel performed both acceptance and verification
     procedures at the BMEU; therefore, during daily peak periods the staff skipped some
     verifications in order to adequately perform acceptance procedures on mailings
     received.

•    Documentation was not maintained on skip interval13 mailings; if a verification was
     not required, the clerks did not annotate the skip on the postage statement or in
     PostalOne!.

Because adequate verifications were not performed and the required documentation
was not completed, the Postal Service was at risk of not collecting all applicable
postage. Table 3 shows the maximum potential revenue at risk14 for the 199 mailings
for the postage statements and mailings we reviewed.

                                       Table 3: Revenue at Risk
                                xxxxxxx                    $ 177,983
                                xxxxxx                       1,290,223
                                xxxxxxx                         79,662
                                xxxxxxxxx                      $90,445
                                xxxxxxxx                       161,811
                                xxxxx                          104,860
                                Total                      $1,904,983




13
   So that the Postal Service can fully realize savings from reduced postal handling costs, all presort mailings of
10,000 pieces or more at non-MERLIN locations are placed on a graduated verification cycle known as a skip
interval.
14
   We determined revenue at risk to be the difference between the recalculated full rate on each mailing if no
discounts had been applied and the rate at which the mail was entered.




                                                           10
Business Mail Entry Unit Sampling                                                                         MS-AR-08-005
 and Verification Procedures


Backup Verification Coverage Was Not Established at One Detached Mail Unit

Because the BMEU clerk assigned to a DMU was on leave or was not scheduled to
work for 15 non-consecutive days in December 2007, the DMU had no personnel
available to conduct MERLIN verifications. Handbook DM-109 states that BME
managers are responsible for annually ensuring the adequacy of DMU staffing and
scheduling. Further, supervisors are responsible for ensuring that all scheduled DMUs
are staffed daily. Finally, one condition of establishing a DMU is that the manager or
postmaster must agree and be able to adequately staff the DMU to ensure revenue is
protected.

The DMU had no verification coverage on those days because no procedure existed for
assigning backup personnel to the DMU to perform verifications when the primary clerk
was not available.

Because the DMUs were not adequately staffed with personnel who could perform
verifications, the Postal Service was at risk of not collecting all applicable postage. For
the 29 postage statements15 and mailings reviewed for the period no clerk was present
to verify the mailings, the maximum potential revenue at risk16 was $613,025.




15
   These DMU mailings were identified separately from our initial sample of 60 and not included in the first finding, “In-
Depth Verifications for Large Mailings Were Not Always Performed.”
16
   We determined revenue at risk to be the difference between the recalculated full rate on each of the mailings if no
discounts had been applied and the rate at which the mail was entered.




                                                           11
Business Mail Entry Unit Sampling                          MS-AR-08-005
 and Verification Procedures


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                      12
Business Mail Entry Unit Sampling        MS-AR-08-005
 and Verification Procedures




                                    13
Business Mail Entry Unit Sampling        MS-AR-08-005
 and Verification Procedures




                                    14
